<html>
<title> - PENDING LEGISLATION</title>
<body><pre>[Senate Hearing 116-342]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-342
 
                          PENDING LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                                   on

                                S. 1665

                                S. 1723

                                S. 1967


                               __________

                            OCTOBER 31, 2019

                               __________
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               


                       Printed for the use of the
               Committee on Energy and Natural Resources
               

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
                         ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 39-868               WASHINGTON : 2021 
         
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                Annie Hoefler, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     2
Manchin III, Hon. Joe, Ranking Member and a U.S. Senator from 
  West Virginia..................................................     3
Gardner, Hon. Cory, a U.S. Senator from Colorado.................     5
Barrasso, Hon. John, a U.S. Senator from Wyoming.................     5

                               WITNESSES

French, Chris, Deputy Chief, National Forest System, USDA Forest 
  Service........................................................     7
Haskett, Nikki, Acting Assistant Director for National 
  Conservation Lands and Community Partnerships, Bureau of Land 
  Management, U.S. Department of the Interior....................    14
McGuire, Brendan, Vice President of Public Affairs, Vail Resorts.    22
Davis, Lee, Executive Director, Outdoor Recreation Economy 
  Initiative, Oregon State University - Portland Center..........    26
Bannon, Aaron, Environmental Stewardship and Sustainability 
  Director, National Outdoor Leadership School...................    38

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

America Outdoors Association:
    Letter for the Record........................................   186
America Mountain Guides Association:
    Statement for the Record.....................................   187
Bannon, Aaron:
    Opening Statement............................................    38
    Written Testimony............................................    40
    Responses to Questions for the Record........................    82
Barrasso, Hon. John:
    Opening Statement............................................     5
Coalition for Outdoor Access:
    Statement for the Record.....................................   194
Colorado Ski Country USA, et al.:
    Letter for the Record........................................   199
Davis, Lee:
    Opening Statement............................................    26
    Written Testimony............................................    29
    Responses to Questions for the Record........................    78
French, Chris:
    Opening Statement............................................     7
    Written Testimony............................................     9
    Response to Question from Senator Heinrich...................    62
    Responses to Questions for the Record........................    66
Gardner, Hon. Cory:
    Opening Statement............................................     5
Haskett, Nikki:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................    71
Manchin III, Hon. Joe:
    Opening Statement............................................     3
McGuire, Brendan:
    Opening Statement............................................    22
    Written Testimony............................................    24
    Responses to Questions for the Record........................    75
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Outdoor Alliance and The Conservation Alliance:
    Letter for the Record........................................   201
Outdoor Recreation Roundtable:
    Letter for the Record regarding S. 1665 and S. 1967..........   206
    Letter for the Record regarding S. 1723......................   208
Recreational Equipment, Inc. (REI) Co-op:
    Letter for the Record........................................   210
S. 1665, the Simplifying Outdoor Access for Recreation Act.......    85
S. 1723, the Ski Area Fee Retention Act..........................   118
S. 1967, the Recreation Not Red Tape Act.........................   127
Wyden, Hon. Ron:
    Opening Statement............................................     2


                          PENDING LEGISLATION

                              ----------                              


                       THURSDAY, OCTOBER 31, 2019

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    Happy Halloween. Happy World Series. Everybody stayed up 
late watching the game. Yeah.
    Senator Daines. Go Nats!
    The Chairman. Yeah, yeah, yeah. It is kind of exciting, 
kind of exciting.
    We are here today talking about good things, recreation, 
and I am going to keep my comments brief because I know 
colleagues have been very engaged in this and a couple of you 
want to make some opening comments as well.
    We have three pieces of legislation before us this morning 
that we are considering. S. 1665, the Simplifying Outdoor 
Access for Recreation Act. Senator Heinrich calls it the SOAR 
Act. I like the acronym there, pretty good.
    S. 1723, the Ski Area Fee Retention Act from Senator 
Gardner. We all love skiing.
    Senator Gardner. And they are open.
    The Chairman. Already?
    Senator Gardner. Already.
    The Chairman. Extraordinary. Can't wait.
    S. 1967, the Recreation Not Red Tape Act from Senator 
Wyden.
    This hearing is building off of one that we held in March 
where we focused on improving access, infrastructure and 
permitting to meet the increasing demand and provide high 
quality recreation opportunities on our federal lands. So the 
proposals that we are looking at today, I think, are a good 
start in addressing those issues.
    Senator Heinrich and Senator Wyden have put forward 
legislation to streamline and simplify the systems in place to 
process permits for our outfitters, guides and non-profits for 
those who operate across the spectrum of federal lands.
    Senator Gardner's bill would help facilitate the private 
investment needed for infrastructure to meet the demands for 
four season recreation at ski areas that operate in our 
nation's forests.
    All of these measures recognize the important role that 
recreation is playing in our economy. According to the Bureau 
of Economic Analysis in 2017, outdoor recreation accounted for 
2.2 percent of current dollar GDP, or about $427 billion. This 
includes not only the impact to sectors like outfitting and 
guiding but all of the associated impact as well, such as 
lodging, transportation, and restaurants.
    In my state we certainly see a big impact from recreation. 
In 2018, Alaska welcomed about 1.17 million cruise ship 
visitors. I think this next year we are up to about 1.3 
million. This is in a state of about 720,000 people. So we 
certainly feel that impact. It is exciting, but sometimes it is 
a little bit overwhelming.
    At the Mendenhall Glacier Visitor Center in Juneau, you 
have hundreds of people who want to get into the facility every 
day, but the facility is designed to hold a fraction of that. 
The Forest Service is developing a master plan to respond to 
the increased visitation, but it is a challenge.
    I was with Senator Lee this past Friday. We had a 
Roundtable out in Moab, and we had an opportunity to go to 
Arches National Park. And to see the pressures--everybody wants 
to get into the park, but how do we accommodate, how do we 
facilitate?
    Our outfitters and our guides are also trying to respond to 
growing demand. Heli-ski and backcountry ski guides want to go 
into new areas in the Chugach National Forest and on the BLM 
lands near Haines, but they are being delayed by a very lengthy 
and expensive environmental review process and a lack of 
capacity at the agencies to process the permits. These are all 
things that we hear about.
    So what we are trying to do is to ensure that our federal 
land managers have the resources and the flexibility needed to 
respond to increasing and changing demand. Again, I appreciate 
our colleagues' work on these very important bills.
    I am going to turn to Senator Manchin before I introduce 
our panel. I know that members, a couple of you, would like to 
make introductions for some of the witnesses who are here this 
morning.
    Senator Manchin. Madam Chairman, if I can, I would like to 
defer to my good friend, Senator Wyden, he has a finance 
meeting coming up, before I give my opening statement.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Senator Manchin and Chair 
Murkowski. I don't want to make this a bouquet tossing contest, 
but not only do I want to thank you for your courtesy so I can 
do this and see if I can get back, but I also very much 
appreciate your leadership on the recreation issues, the work 
we try to do up here in a bipartisan way.
    I think we all understand every member here, particularly 
Westerners, we understand that this recreation effort, Senator 
Heinrich's bill and mine are very compatible, is clearly a 
boost both for our quality of life in the West and for our 
economy and a chance to bring Americans together for better 
health. So I really appreciate this.
    My bill with Congressman Bishop, RNR, Recreation Not Red 
Tape, is basically one that, kind of, updates the policies from 
yesteryear because in yesteryear recreation was not the big 
economic engine that it is today. So that is what our bill is 
all about. That is point one.
    Point number two. We have an Oregonian, Lee Davis, here. He 
knows a lot about recreation. When he headed Mazamas, he was 
responsible for the outfitter and guide permit with the most 
user days in the State of Oregon and he also helped create an 
Oregon State Office of Outdoor Recreation. So Lee, I am going 
to be running back and forth and I have had the courtesy of the 
Chair and the Ranking Member, but colleagues, we are really 
talking to the gold standard when you hear from my fellow 
Oregonian.
    Last point, and I am not interested in starting a big 
controversy, but I want to make sure we talk through the Chair 
and the Vice Chair about this in the days ahead. And that is, 
colleagues, we all know because we read the paper about these 
wildfires that are just ravaging the West and there are a host 
of issues that we are going to have to tackle.
    I just want to put two up on the boards. One of them is 
climate change and I think there are some ways that we can work 
collaboratively on that. And second is collaboration which is 
what we have tried to stress on the ground. That is what the 
end of fire borrowing is all about. That is what stewardship 
has been all about.
    If we want to have colleagues' wonderful places to 
recreate, we are going to have to do something to get an update 
of the policies for fighting fire or we are going to lose some 
of those places.
    Madam Chair and the Vice Chair, I look forward to working 
with you on both fronts and to Lee, I will be back and forth.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    Senator Manchin.

              STATEMENT OF HON. JOE MANCHIN III, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Manchin. Thank you, Chair Murkowski, for holding 
the hearing, and I want to thank all of you all for being here 
today.
    I commend the sponsors of the bills on today's agenda for 
exploring innovative ways to improve outdoor recreation and the 
business that supports it. Outdoor recreation has been a 
powerful economic driver in states across the country, and my 
home state of West Virginia is no exception. It has been 
wonderful.
    I have seen firsthand the jobs that outdoor recreation 
economy has brought to rural areas in West Virginia. Outdoor 
recreation in my state now generates two percent of our Gross 
Domestic Product and supports 22,000 jobs. Three percent of our 
workforce is now employed in the outdoor recreational sector 
earning over $688 million in salaries. So this is a topic that 
is near and dear to my heart, as I know it is to everybody 
here.
    As our Committee reviews legislation related to outdoor 
recreation, I believe we must ensure the ideas being discussed 
will grow the economies of rural communities. All three bills 
before the Committee today attempt to do that and will have 
impacts, I believe, in the states not only where they are being 
introduced but for all of us and especially in West Virginia, 
if enacted.
    Senator Gardner's bill would provide assistance to ski 
areas on federal land. While we will be hearing from Mr. 
McGuire about how this will impact the ski industry, I want to 
mention that we have two ski areas in West Virginia that use 
Forest Service land. Unfortunately, a third area located on the 
Monongahela National Forest closed earlier this year and is now 
for sale, but it will be back up and running. I look forward to 
the discussion about ways we can be better partners with the 
ski industry, the appropriate use of revenue from fees and a 
fair return to the taxpayers.
    We will also be discussing a bill sponsored by Senators 
Heinrich and Capito that would provide assistance to those 
leading backpacking trips on federal land.
    Senator Wyden's bill which he just spoke about proposes to 
establish a system of national recreation areas. West Virginia 
was actually home to the first national recreation area 
designated in the United States in 1965 which is the Spruce 
Knob-Seneca Rocks National Recreation Area.
    These bills all have things in common: facilitating 
people's ability to enjoy our public lands while supporting 
jobs and the local economies. Following this hearing, Chairman 
Murkowski and I will get to work with our colleagues on a 
recreation package to report out of this Committee. The heart 
and soul of that package will be the same as the bills we are 
discussing today to not only make it easier for people to enjoy 
their public lands but also grow businesses in all rural 
communities.
    Coming from Alaska and West Virginia, we have firsthand 
experience of the importance of recreation in our states and, 
with that as a basis, we have been developing additional ideas 
for inclusion in the forthcoming package. For example, one of 
the areas that I have been exploring is how we might be able to 
better support gateway communities. Those are the communities 
that are next to the recreation destinations where visitors eat 
and sleep before or after enjoying the sites that they come to 
visit.
    Mr. Jeffrey Lusk, from our Hatfield-McCoy Trail System 
testified before our Committee earlier this year about how 
difficult it was to establish businesses in gateway 
communities. Mr. Lusk's trail system hosts 50,000 riders 
annually but 87 percent of those riders are non-West Virginian, 
meaning that they need hotels at which to stay and restaurants 
at which to eat. Unfortunately, in West Virginia and I am sure 
in my colleagues' home states, it continues to be very 
difficult to establish the infrastructure that is needed to 
accommodate increased visitation to some of these rural areas.
    So I look forward to working with Chairman Murkowski and my 
colleagues on this and many other ideas as we assemble a 
bipartisan recreation package in the coming weeks.
    With that, I want to thank the witnesses and Madam 
Chairman, thank you.
    The Chairman. Thank you.
    Senator Gardner, I know you had wanted to make 
introductions and perhaps briefly speak about your bill. 
Senator Barrasso, I know you wanted to make an introduction, 
and Senator Heinrich, you have a bill up here. I have given 
everybody an opportunity; we are never going to get to these 
guys.
    Senator Heinrich. Yes, I was going to say, I just want to 
hear from our witnesses.
    The Chairman. I wanted to share the same courtesies, but 
let me turn to Senator Gardner and then Senator Barrasso then.
    Thank you.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Madam Chair, and I will be very 
quick.
    I am very pleased to have before the Committee a fellow 
Coloradan, Brendan McGuire, who is Vice President for Public 
Affairs at Vail Resorts testifying on behalf of the National 
Ski Area Association this morning.
    Vail Resorts, of course, is headquartered in Colorado where 
its namesake, Vail Mountain, was started in 1962 by veterans of 
the famed 10th Mountain Division of World War II. Since then, 
Vail Resorts has grown into a huge Colorado success story 
spanning 37 ski areas across three countries and the United 
States all linked together by its industry leading Epic season 
pass, available online and around the country.
    Correct, Brendan? Is that right?
    Mr. McGuire. For sale right now.
    Senator Gardner. Sorry about that commercial.
    And all linked together that allows skiers and riders to 
access local, regional and destination ski resorts at a great 
value.
    Brendan, a native Coloradan, former ski instructor, former 
Senate staffer for Senator Ken Salazar and, as Chair Murkowski 
can attest to, a pretty great guy to be in the mountains with. 
Thank you very much for being here today. And I think you have 
86 acres open at Keystone right now.
    Mr. McGuire. That's right.
    The Chairman. Wow. Amazing.
    Great, thank you, Senator Gardner.
    Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman. I am pleased to help you welcome Aaron Bannon to our 
Committee today as a witness. He and I share the hometown of 
Casper, Wyoming, and we share a love of the precious natural 
resources that Wyoming has to offer.
    He has spent more than a decade with the National Outdoor 
Leadership School (NOLS) where he has been extraordinary in 
terms of being an advocate for issues relating to outdoor 
education, efficient, responsible use of public lands and 
efficient permitting, of course.
    When we think about public lands in the history of this 
country, whether it was John Muir, whether it was Ansel Adams, 
whether it was Teddy Roosevelt--you know, John Muir carried a 
stick, Ansel Adams carried a camera, Teddy Roosevelt carried a 
gun. But all of them saw the land. They all arrived at the same 
conclusion. We need to preserve and protect and then pass on 
these resources and allow others to enjoy them.
    Aaron and I have had many conversations about ways to avoid 
the cumbersome permitting process that dissuades public use of 
public lands. So I am glad he is here today. Look, our State of 
Wyoming relies on recreation and tourism as a key component of 
our state economy. Much of the recreation occurs on public 
lands managed by federal agencies, so it is important that we 
combine thoughtful evaluation of the impacts with an effective 
and efficient permitting process that encourages public access 
and exploration of these magnificent landscapes.
    Aaron, I look forward to the expertise that you are going 
to share with the Committee today. I also want to congratulate 
you. I know that Monday you will be starting work with American 
Outdoors as the Executive Director. So it is big news, and I 
look forward to continuing to work with you in your new role.
    Thank you, Madam Chairman.
    The Chairman. Great. Thank you, Senator Barrasso. Thank 
you, all.
    Most of you have been introduced, but I will provide my 
welcome to each of you.
    We will start off the discussion here this morning with an 
individual who has been before the Committee. We have certainly 
had many dealings with Chris French. He is the Deputy Chief for 
the National Forest System in the USDA Forest Service. Chris, 
we thank you for the many, many efforts that you have made, and 
I know you are spending a lot of attention and time on Alaska-
related issues as you deal with Forest Service. Thank you for 
your leadership.
    Nikki Haskett is with the Committee this morning. She is 
the Acting Assistant Director for National Conservation Lands 
and Community Partnerships over at the Bureau of Land 
Management (BLM). We thank you for being here this morning and 
look forward to your comments.
    Brendan McGuire has been introduced and welcomed. It is 
always good to have somebody that can be, again, speaking with 
a firsthand relationship to the industry that he represents, 
and he certainly does. We welcome you to the Committee.
    Mr. Lee Davis has been introduced by Senator Wyden. We are 
pleased that you are with us from Oregon. Welcome to the 
Committee.
    And to Mr. Aaron Bannon, we appreciate what you will 
provide.
    We ask you to try to keep your comments to about five 
minutes. Your full statements will be included as part of the 
record, and then we will have an opportunity for questions 
afterwards.
    I am going to excuse myself for just for a couple minutes 
to go introduce an amendment in another committee, and I will 
be back in about five minutes.
    We will lead off the Committee here with Mr. French.
    Thank you.

   STATEMENT OF CHRIS FRENCH, DEPUTY CHIEF, NATIONAL FOREST 
                  SYSTEM, USDA FOREST SERVICE

    Mr. French. Well, thank you very much, Madam Chair, Vice 
Chair and members of the Committee. I really appreciate the 
opportunity today to talk about our views on these three bills, 
the Recreation Not Red Tape Act, the Simplifying Outdoor Access 
Recreation Act and the Ski Area Fee Retention Act.
    You know, when I glance back at my 30 years that I've been 
with the Forest Service, I started as a Recreation Technician. 
And now, as I sit here and think about my role as Deputy Chief, 
I realize I've always had a passion for connecting people to 
the recreational opportunities on our public lands and it's 
where I take my family.
    Senator, I ski in those resorts in West Virginia. I know 
the one that closed and it was hard to see that happen.
    Senator Manchin. It will be back----
    Mr. French. That's good.
    And I used many of the services provided by our outfitter 
guides.
    You know, when I look at this, I think that anything that 
we can do to improve our ability to better serve our recreation 
community and our recreation partners and enhance those 
experience connecting folks to our public lands, that's a good 
day.
    Outdoor recreation is a significant use of our National 
Forest System. The number of recreation visits to the National 
Forest System rose from 143 million in 2009, nine years later 
that was at 150 million. Recreation on National Forest System 
lands sustains more private sector jobs than any other Forest 
Service program and provides the single, largest stimulus for 
many local gateway communities.
    Recreation on National Forest System lands contributes more 
than $11 billion to America's Gross Domestic Product and 
supports more than 148,000 full- and part-time jobs, most of 
which are in those gateway and rural communities. Outdoor 
recreation opportunities and amenities are consistently ranked 
as one of the primary reasons people move to rural towns and 
can be a leading contributor to local communities.
    At the Forest Service, we administer more than 30,000 
recreation specialty use authorizations for activities that 
generate nearly $2 billion to their holders. In particular, the 
Forest Service manages 122 ski area permits and approximately 
8,000 outfitter and guide permits. These permits enable private 
sector professionals, educational institutions to lead a wide 
range of activities on National Forest System lands whether 
it's white river rafting, downhill skiing, horseback riding, 
big game hunting or youth education trips in wilderness or 
scenic jeep tours.
    For many of these activities, they represent, this 
represents the first introduction that many folks have to the 
outdoors and the outfitter and guides that they employ are 
often small businesses that generate jobs and income for local 
communities.
    We also manage nearly 159,000 miles of trails, the largest 
trail network in the nation. We host over 60 percent of the 
country's ski area visits, and we're proud to provide a vital 
respite from the fast-paced life in the form of thousands of 
campsites and day use picnic areas as well as opportunities for 
boating, fishing, hunting and hiking.
    USDA supports the overall goals of these bills to improve 
recreational access on National Forest System lands. The 
Recreation Not Red Tape Act and the SOAR Act will complement 
agency efforts to streamline our processes, reduce 
inefficiencies and provide a higher level of customer service 
to our public and our valued partners. The Ski Area Fee 
Retention Act will increase available resources available to 
improve the administration of and the experience on our ski 
areas.
    Finally, outdoor recreation provides millions of Americans 
rich opportunities to connect with their lands and their 
heritage. The USDA Forest Service is honored to serve in this 
vital link and enormously values this opportunity to work with 
Congress to improve the lives and livelihoods of Americans 
through outdoor recreation.
    I, again, thank you to the Committee for the opportunity to 
provide testimony, and I look forward to working together on 
these important bills.
    [The prepared statement of Mr. French follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
     
    Senator Heinrich [presiding]. Thank you, Mr. French.
    Ms. Haskett.

   STATEMENT OF NIKKI HASKETT, ACTING ASSISTANT DIRECTOR FOR 
NATIONAL CONSERVATION LANDS AND COMMUNITY PARTNERSHIPS, BUREAU 
      OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Haskett. Good morning, Chairman Murkowski and Ranking 
Member Manchin. I am Nikki Haskett, Acting Assistant Director 
for National Conservation Lands and Community Partnerships at 
the Bureau of Land Management. Thank you for inviting me here 
today to testify on S. 1967, the Recreation Not Red Tape Act, 
and S. 1665, the Simplifying Outdoor Access for Recreation Act, 
or SOAR Act.
    These bills which amend the Federal Lands Recreation 
Enhancement Act aim to improve the efficiency and reduce the 
cost for applying for and administering special recreation 
permits. They also authorize single, joint, special recreation 
permits for multi-agency trips. The Department supports the 
goals of both of these bills.
    Federal land management agencies oversee about 640 million 
surface acres, including public lands managed by the BLM, the 
U.S. Fish and Wildlife Service, the Bureau of Reclamation and 
the National Park Service as well as the Forest Service. These 
lands host a remarkable variety of recreational opportunities.
    Secretary Bernhardt is improving recreational access to 
public lands and has issued a number of orders in support of 
this priority. For example, Secretarial Order 3373 promotes 
improved access to public lands, and under this policy the BLM 
has acquired new lands such as 13,000 acres to improve access 
to the Blackfoot River in Montana and the 3,500 acres to 
improve access to the Sabinoso Wilderness Area in New Mexico.
    Much of the changes proposed in the bills being considered 
today deal with special recreation permits and their associated 
fees. Fees collected for each permit allow the Federal 
Government to implement projects that benefit visitors such as 
maintaining recreational sites. The BLM issues over 1,000 of 
these recreation permits a year and oversees about 4,600 
special recreation permits at any one time.
    S. 1967 and S. 1665 align with the Secretary's priorities 
to increase access and promote recreational opportunities on 
public lands. We believe that these bills have the potential to 
address some longstanding challenges, and we look forward to 
working with the sponsors and the Committee to address a number 
of technical issues in the measures.
    Both bills authorize agencies to issue single, joint 
recreation permits for trips that cross agency boundaries of 
more than one land management agency. When a single, joint 
recreation permit is proposed the bills authorize the 
designation of a lead agency for the permit. The bills also 
authorize agencies to delegate the respective enforcement 
authorities to the lead agency.
    The Department has been pursuing efforts to make recreation 
permitting easier, and we support efforts to improve the 
permitting process. Americans should be able to access and 
enjoy their public lands with as much ease as possible. The 
Department supports the goals of these provisions and would 
like to continue to work with the sponsors on certain 
modifications.
    The bills also provide various other authorities for 
agencies to improve the permitting process such as expanded use 
of categorical exclusions and allowing permittees to return 
unused service days. The Department strongly supports these 
provisions.
    Other provisions of the bills such as online and email 
notifications of permit opportunities and exemptions of the 
first 50 hours of work from cost recovery reflect the goals of 
the Department, and we support and appreciate the opportunity 
to continue working with the sponsors and the Committee on 
these provisions.
    Lastly, the Recreation Not Red Tape Act includes a 
provision regarding retailing of recreational passes, 
encouraging veterans and service members to recreate on public 
lands and expanding the use of volunteers. The Department 
supports these provisions.
    In conclusion, we are grateful that the Committee is 
considering legislation to make it easier for Americans to 
enjoy their public lands. Thank you again for the opportunity 
to testify today. I would be happy to answer any questions you 
may have.
    [The prepared statement of Ms. Haskett follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
           
    Senator Heinrich. Thank you very much.
    Mr. McGuire, you may begin.

STATEMENT OF BRENDAN MCGUIRE, VICE PRESIDENT OF PUBLIC AFFAIRS, 
                          VAIL RESORTS

    Mr. McGuire. Good morning. Thank you, Senator Gardner, for 
that nice introduction. Ranking Member Manchin, members of the 
Committee, thank you for the opportunity to be here in support 
of S. 1723, the Ski Area Fee Retention Act (SAFRA) of 2019.
    On behalf of Vail Resorts, my employer, and the National 
Ski Areas Association (NSAA), we'd also like to thank Senators 
Bennett and Wyden, for their leadership in introducing the bill 
and Committee members Barrasso, Cortez Masto, McSally and Risch 
for co-sponsoring this bipartisan measure to retain ski area 
permit fees locally.
    NSAA has 325 members, 122 of which operate on the National 
Forest System. Vail Resorts, my company that I work for, owns 
and operates 37 ski areas including iconic public lands 
resorts: Vail Mountain in Colorado; Stevens Pass in Washington; 
Heavenly in Tahoe; and Mt. Snow in Vermont. So it goes all the 
way East as well.
    SAFRA would retain a percentage of ski area permit fees in 
the forest in which they were generated. Those funds would be 
retained so that the Forest Service has the capacity to 
administer ski area permits and review ski area infrastructure 
projects.
    Ski areas work in partnership with the U.S. Forest Service 
to deliver an outdoor recreation experience that is really 
unmatched in the world. This public-private partnership dates 
back to the 1940s and has a long history of providing benefits 
to all Americans through health and fitness, an appreciation of 
our natural environment and providing strong returns to the 
U.S. Government through those fees paid for the use of the 
land.
    Over the past ten years, ski areas nationwide have averaged 
over 55 million visits annually. Sixty percent of those visits 
occur on Forest Service public lands. In total, the industry 
creates $62 billion in tourist-related revenue, supports nearly 
a million jobs and generates nearly $5 billion in annual retail 
sales.
    Public land ski areas are typically the largest employer 
for the communities in which they operate. They pay for all 
onsite improvements, including roads, parking lots, chairlifts, 
as well as all the processes required to review and approve 
such projects. The ability for our ski areas to move forward as 
a business is linked to our most important partner, the U.S. 
Forest Service, and their capacity to review proposals and 
render decisions.
    Fee retention as outlined in the bill is an important tool 
to boost the agency's capacity to review ski area proposals. 
This legislation would allow ski areas to invest more and 
sooner in much needed infrastructure.
    Retaining these ski fees is necessary because funding and 
staffing for the Forest Service Rec program sits at nearly 20 
percent below 2010 levels. Meanwhile, visitation has only 
grown, increasing by 30 percent in that same time period. The 
Forest Service's own data shows that 85 percent of visitors to 
the National Forests are seeking recreation opportunities. Of 
the ten most visited forests nationwide, nine of them host ski 
areas and that visitation drives local economies.
    Ski areas are less likely to receive timely reviews of 
project proposals when forests are operating at low permit 
administration capacity. Ski areas have experienced pauses 
during which proposals cannot be accepted by the agency. Some 
forests have seen a lack of bandwidth that allows them to only 
review one project at a time.
    When projects are delayed and timelines uncertain, ski 
areas, like all businesses, find it harder to invest 
significant resources. That means ski areas are less likely or 
slower to upgrade chairlifts, to upgrade to energy efficient 
snowmaking systems and to transition to four season models 
capable of supporting jobs and the economy all year. This 
uncertainty has, unfortunately, shelved ski area investments 
that would have benefited workers, guests and communities. 
Dedicating a percentage of the nearly $40 million in fees paid 
by ski areas will unlock new investment opportunities.
    Since 2010, ski areas operating on Forest Service lands 
have experienced good revenue growth in the winter, and they 
were up over 100 percent from our summer activities thanks to 
the bill that this Committee and Congress passed in 2011, the 
Summer Activities bill. There's tremendous interest in our 
industry to harness this momentum and build the infrastructure 
necessary to support future growth.
    We urge your support of S. 1723, and thank you again for 
the opportunity to be here.
    [The prepared statement of Mr. McGuire follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
       
    The Chairman [presiding]. Thank you, Mr. McGuire.
    Mr. Davis, welcome.

STATEMENT OF LEE DAVIS, EXECUTIVE DIRECTOR, OUTDOOR RECREATION 
 ECONOMY INITIATIVE, OREGON STATE UNIVERSITY (OSU) - PORTLAND 
                             CENTER

    Mr. Davis. Thank you, Chair Murkowski and Ranking Member 
Manchin and members of the Committee. The Committee members 
here today are very, very aware of the details in these bills 
and the issues facing us and all the giant numbers and impacts 
that recreation bring to our economy and people.
    I've been waiting for this day for about seven years, so I 
decided that you can read my written testimony and today I'm 
just going to tell you some stories.
    Seven years ago, I was called to a meeting in Portland, 
Oregon, with some people that are here behind me. It was about 
trying to figure out how to get more permits for groups that 
were trying to get kids outside. I was called because, as 
Senator Wyden mentioned, at that time I was running the largest 
outfitter guide permit in the State of Oregon. And so, people 
were pretty regularly calling me, small business owners and 
other people were calling me and saying how do I get a permit? 
How do I get a permit? Do you guys have it? And you know, 
asking if we could broker permits, asking if they could, you 
know, is there any way they could work with us or could the 
Mazamas just buy them out so that they could do the things they 
wanted to do within our permit? And I bring up that meeting 
because what we ended up doing in that meeting was deciding 
that we had to create a private sector training program to 
teach small businesses and outfitters and guides simply how to 
navigate the permit process, you know?
    And so, we built those with, again, some of the people in 
the room, Paul Sanford behind me helped with that. We built 
those training programs. We launched those training programs. 
We had to stop them within about a year because people were so 
angry by the end of the training. We'd teach them all the 
processes and procedures and all, and we'd have Forest Service 
staff come and tell them, you know, exactly what you need to 
do, step by step by step.
    And then they would hear that there's been a 23-year 
moratorium on permits on Mount Baker National Forest or a 20-
year moratorium on Mount Hood National Forest. And the permit 
staff, you know, was not available that day to help them with 
their request, you know? So we had to stop that training, and 
that's kind of ridiculous.
    The other thing that I think is worth mentioning about 
those days is that the permit application that I would submit 
every year was 76 pages long. We had to tell them exactly where 
all 14,000 participants were going to be, every single year. If 
we were going to vary the date of participation because of 
weather or, you know, different seasonal issues or anything 
like that, we had to call them and notify them. It was just 
incredibly laborious.
    The other thing I want to mention about that meeting was 
that day I met a man, a philanthropist from Seattle, named Doug 
Walker. Doug Walker was the person that explained to me that 
the biggest threat facing public lands and waters in the future 
is that our kids aren't building a bond of care with the 
outdoors, that more than anything else if our future voters, 
our future workers and constituents don't understand the value 
of the place, they're not going to vote to protect it. So I 
think those are some real reasons why we need to work on permit 
reform.
    Next, I want to talk a little bit about national recreation 
areas. Most of us are aware we have great tools like the 
Wilderness Act and the Wild and Scenic Rivers Act and monuments 
to protect natural and cultural assets in our country. But to 
my knowledge, we don't have great tools that help us protect 
places where the primary value is recreation. And that's, I 
think, some folks are afraid of creating a new designation 
because it might be misused. But I think even on Halloween we 
don't need to be afraid of that because of you guys. In other 
words, each new national recreation area would have to go 
through Congress, and the devil's in the details on these 
things. And there's nothing in this provision that prohibits, 
you know, the interchange between recreational uses and 
resource extraction.
    The Dean of the College of Forestry at Oregon State 
University, where I work, often likes to talk about trails in 
Northern Europe where you can mountain bike by wineries and 
farms and sawmills. And they have recreational trails that 
effectively integrate resource extraction and recreation and 
celebrate all the great uses that our public lands bring to our 
people and our economies. And that's possible.
    I think, you know, and you've heard in some, I think, in 
some previous hearings on this that people have had to go 
outside of the country just to operate sometimes because it was 
so hard to operate in this country. There's a rafting guide in 
Oregon that I know that does that. There's a mountain climbing 
guide in Oregon I know that leads trips in Africa and Nepal, 
because it's easier than running them in Oregon and Washington.
    I, myself, spent eight years taking people to Chamonix, 
France, because it was easier for me to fly 15, 20 people to 
France than it was to get them to recreate in Alaska or 
Washington or Oregon. I mean, my most formative experience in 
the outdoors was traversing the Arrigetch Peaks in the Gates of 
the Arctic National Park in the Brooks Range. I would have 
loved to have taken those people there, but I just couldn't do 
it.
    The last thing I want to talk about is making recreation a 
priority. I think in my written testimony I laid out a series 
of strategies that I think that we might want to look at and 
evolve into a national strategy to move the recreation economy 
forward. I think that the outdoor recreation economy is the 
future of natural, resource-based jobs in America. And 
certainly, resource extraction jobs will be with us forever, 
but I think that we need to invest in this economy the way we 
invested in 20th century in natural resource-based jobs and 
infrastructure.
    Currently in my role at OSU I'm working on creating 
pathways to new and better jobs in the outdoor recreation 
economy, working on creating certificates and badges and degree 
programs eventually that will address the technical labor 
challenges and the, you know, leadership level challenges that 
all industries face and that also face our industry.
    Through my work I also know that our industry really does 
back these bills. I work very closely with Jessica Wall at the 
Outdoor Recreation Roundtable representing 50,000 companies in 
America, and they support these bills. So this isn't just me 
and education and advocates saying this stuff's important--this 
is industry.
    I think you all are also very aware that my work and Jess' 
work is about bringing it together, the entire recreation 
economy from hunt and fish to non-consumptive to, you know, 
across divides and we have a real opportunity here to bring 
people together in a different kind of way.
    The last thing I'll say is that I think future visions of 
high-quality life in America include outdoor recreation out 
your doorstep. I often, sort of, joke that my kid can still 
draw you a better picture of what high-quality life in the '50s 
was supposed to look like than he can tell you what it's 
supposed to look like 20 years from now.
    But we do know places like Bend, Oregon, and Ashland and 
Head River in Oregon, at least, are, sort of, icons of that. I 
think that if we can reform our permit process, if we can have 
dedicated accountable agency staff that are measured by outdoor 
recreation as a performance metric, and if we can have tools 
like National Recreation Areas to tell managers that they need 
to plan and manage around recreation, that we can move the 
needle on these, on this economy.
    So, thank you.
    [The prepared statement of Mr. Davis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

        The Chairman. Thank you, Mr. Davis.
    Mr. Bannon, welcome.

   STATEMENT OF AARON BANNON, ENVIRONMENTAL STEWARDSHIP AND 
  SUSTAINABILITY DIRECTOR, NATIONAL OUTDOOR LEADERSHIP SCHOOL

    Mr. Bannon. Thank you very much, Madam Chairman, members of 
the Committee, for holding this very important hearing. We are 
doing critical work here today to address the persistent 
challenges that are constraining guided outdoor recreation 
experiences. And we at NOLS are very grateful for your 
diligence.
    As Senator Barrasso mentioned, I find myself at a personal 
crossroads today. This week, today, I'm representing NOLS, the 
National Outdoor Leadership School, a non-profit, educational 
institution which has educated nearly 300,000 students in our 
55-year history which was also, Senator, incidentally, started 
by a 10th Mountain Division member.
    And next week, I will begin as the Executive Director of 
the America Outdoors Association. America Outdoors is a trade 
association representing hundreds of non-profit and for-profit 
commercial outfitters across the country.
    So, NOLS and America Outdoors have been working hand in 
hand on this legislation for years Simplifying Outdoor Act--I'm 
sorry, Simplifying Outdoor Access for Recreation Act, and it is 
fitting and a positive development for both of our 
organizations to have this hearing on our bill today.
    The SOAR Act is about finding legislative solutions to 
persistent barriers for commonsense permitting problems through 
rulemaking processes. Agencies have tried to reform their own 
permitting challenges to varying degrees of success. In the 
best cases, permit administrators are able to navigate the 
process successfully. In many cases, however, these 
administrators perceive too many obstacles in the successful 
processing of a permit application or modification is near 
impossible.
    If a capacity analysis has not been completed, for example, 
administrators do not think they can make additional days 
available. If a review team is not available, administrators do 
not feel they have the resources to complete an environmental 
analysis. If there are other competing interests on the forest, 
those interests typically take priority over recreation 
permitting.
    Fundamentally, agencies need to adapt simplified processes 
to streamline permit reviews and to empower line officers to be 
more responsive to the needs of their permittees. The SOAR Act 
would restore reasonable flexibility in permitting providing 
more options to permitted administrators who otherwise feel 
like their hands are tied.
    Strained resources and a push for consistency compel the 
permit administrator on the river of no return, for example, to 
strengthen their permit there by two days. Traditionally, for 
15 years, we ran a 12-day course through a 72-mile stretch of 
river training our students--having our instructors train our 
students first to canoe and kayak and then to run the river. As 
permit administrators retired and new people came into their 
place or, honestly, we're quickly replaced, the forest was 
constrained in managing a variety of permits and asked to 
confine our permit to what everybody else was doing on the 
river.
    That changed our ability to educate our students. We used 
to have two days of clinics and then they had a half day of 
clinic. So it's stressful. It's hard on the instructors and 
it's hard on the students. It's certainly a rewarding 
experience still, but we would welcome the flexibility that 
existed there before.
    Federal land and water agencies are in the business of 
connecting more people with their landscapes. In practice, 
however, they are raising the cost of entry. Programs for 
profit and non-profit alike have no choice through the rising 
costs of running their business by either paying cost recovery 
fees or the layering of the three percent of gross fees and we 
are constraining our business or raising our prices.
    And for NOLS, the increasing cost and decreasing efficiency 
is making it harder for our scholarship dollars to go as far as 
they could. These scholarship dollars are targeting hundreds of 
at-risk youth every year and trying to provide them that NOLS 
experience. We welcome an opportunity to free those dollars up 
and to make the courses more efficient so that they could, we 
could run more courses for more students.
    Finally, a cost recovery, I would say, where an agency 
recoups its expenditures on permit analysis by billing a 
requesting party is not delivering as agencies hoped that it 
would. If a permit request is under consideration that would 
require an environmental analysis to review, even with the 
current cost recovery paradigm, the review may take years and 
the cost to the outfitter will run in the tens of thousands of 
dollars, even for a relatively modest request and there is no 
guarantee that after paying for that analysis, the permittee 
will be awarded the days. When cost recovery is applied, which 
it's applied inconsistently, it is often applied haphazardly 
and places an undue burden on local businesses.
    So finally I would say that I understand that everybody in 
this room--witnesses, agencies, staffers, audience and our 
Committee alike--is here to connect more people with America's 
incredible outdoor treasures. I truly appreciate our collective 
effort to address those challenges and the spirit of this 
hearing today. We're all in this together. Thank you for your 
time.
    [The prepared statement of Mr. Bannon follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
        
    The Chairman. Thank you. Thank you to each of you.
    I want to start my questions with you, Mr. French, and you, 
Ms. Haskett. At Forest Service, at BLM, you have not only heard 
the issues that have been presented by the others, but you have 
heard the stories that we have shared directly with you, 
whether it is the nearly ten-year effort to help facilitate 
more heli-skiing activity down near Haines--we have a Special 
Recreation Management Area (SRMA) there.
    We have come to you, Mr. French, with frustrations over the 
length of time to get permits. For some years, much of what we 
heard back from Forest Service was we just don't have available 
folks to process these permits because what has happened with 
the somewhat tortured history of fire borrowing that we allowed 
to continue over the course of way too many years, that it 
robbed accounts and you were not adequately and ably managed to 
staff.
    The good news for us is we have addressed that in this 
budget cycle. In fact, with this appropriations bill that we 
will move out here this morning, we are setting to rectify 
that. But that doesn't answer all of the issues and the 
frustrations with what can we do better when it comes to these 
permits on these public lands and how can we facilitate it. And 
thus, the need for the legislation that we are talking about 
here today when we are trying to cut through some of the 
regulatory red tape or the permitting issues.
    Both BLM and Forest Service are mandated to manage for 
multiple-use. You have to figure out how you balance recreation 
with the other uses of these public lands. So to both of you. 
How do you do that? How do you, basically, provide for that 
prioritization or balance one against the other? And then, I 
might have to add it to another question, but I want to hear 
from you, specifically, as to what you think you can do within 
your agency to respond to the frustrations, the very real and 
legitimate frustrations, and not just say, we just need more 
money. There is more to it than just the dollars. So a wide-
ranging question to the two of you.
    Mr. French. Well, thank you, Senator. I really appreciate 
the question.
    I think the testimony that you heard today is very 
accurate. That has been the space we've been in. And as you 
mentioned, you know, we've heard from a number of folks about 
the lack of customer service and our inability to deliver on 
some of these things.
    The fire funding fix is essential. It has basically stopped 
the bleeding of money away from those activities. And so, 
that's really helpful. And that's going to create a more stable 
environment going forward.
    On the first question about how do you balance? You know, 
right now for our focus it is about dealing with that core 
issue that is driving that fire funding issue. And that is, the 
condition of our forests. That's our focus. And then the other 
is around customer service. How do we improve our customer 
service?
    And so, actions that we're doing right now to address this, 
this year building off pilots we've done the last two years. We 
have created funding for additional strike teams just to focus 
on special use permit operations. We, at any given time, have a 
backlog of expired permits that are just unacceptable. Last 
year, we cut that backlog in half, down to about 5,000 and that 
was through these strike teams. We're continuing to do that 
using a risk-based approach where we're looking where the 
biggest problems are and bringing resources to bear there.
    We've also, just this year, in our budget direction issued 
new guidance developing customer service requirements about the 
timeframes for us to respond on many different types of permit 
issues.
    The Chairman. Chris, are you doing that with input from the 
user groups or are you just, are you working these, kind of, 
best practices on your own? Because I think it is important 
that you are acting, kind of, with consultation with those who 
are on the receiving end of this. How much input do you take 
from them or do you just solicit?
    Mr. French. We will.
    And so, in this year's budget direction what we said is 
this year we will establish those standards which we've never 
had before about those minimum response times. And that was 
issued about three weeks ago. And so, that'll be our work in 
the next months, working with groups to inform how we should do 
that.
    The final thing that I'd add, Senator, is we're looking at 
all the processes, the regulations that are around this that 
are driving some of the ways that were showing up that are not 
capacity-related. And so, we're looking at our, as you're 
aware, our NEPA regulations, but we're also looking at the 
policies on permitting in general.
    One of the things that we're working on right now is 
there's over 8,000 activities in our permitting processes that 
we believe through our nominal effects analysis may not even 
require a permit. We're working to put that into regulation.
    So it's a multi-tiered approach of adding capacity where 
it's needed, reforming our policies and putting in performance 
metrics.
    The Chairman. Well, if I can suggest one of the things that 
we have learned is that when, say, for instance--I am going to 
use an example--when the Dodd-Frank regulations came out and I 
would hear all of my small banks and small credit unions coming 
to me and saying, Ah, we are getting killed by these 
regulations. I said, spell it out to me. Tell me which ones are 
really onerous and where you think that there can be a level of 
fix.
    So my hope is, is the agency is listening to, again, the 
outfitters, the guides, the consumers in terms of these are 
areas that are really onerous and burdensome and that are 
keeping us from getting a little, a little permit so that I can 
take eight people out ice fishing. I hope that there is that 
kind of connect going back and forth.
    Ms. Haskett, I want to get to you but I am over my time, so 
I am going to ask you to respond to my question in the next 
round and I am going to turn to Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman.
    First of all, basically I want to commend Senator 
Heinrich's bill. It opens up something bigger for me because I 
come from West Virginia where we have the New River Gorge Park 
System. We have some of the most fantastic rivers, as far as 
rafting, with the New and the Gauley. We don't have this 
problem, because the state controls it. The state controls 
access. We want you to come.
    If it is supposed to be for recreation, why in the heck is 
the Federal Government throttling everything back? Why are we 
fighting the Federal Government which sets access, thousand 
days, this, that and everything else? My goodness, and we are 
doing another park and preserve and we are writing into the law 
to make sure that the state manages the river permits. You 
know, why fix something that is not broken?
    But I'm learning more and more about the federal process 
and how much the Federal Government--well, I know, I have a 
problem with that.
    [Laughter.]
    The Chairman. I just told him that the West has public 
lands.
    [Laughter.]
    Senator Manchin. The park has, the park could have control 
over our river access, same thing. But we never did give it to 
them and that is the difference.
    I don't know how we can--the only thing I would ask is if 
any of you all want to comment, maybe Mr. Bannon or any of you, 
on this. On Senator Heinrich's bill, it makes all the sense in 
the world, we have had, they are telling me that we have had 
these permits out there for a long time. They have been 
dormant, have not been used, no one is getting access or 
setting there, prohibiting people from having the tourism that 
we should have and the economic vitality from it.
    Is this only for businesses? Or if I was a private citizen, 
and if there were 1,000 days allowed and they haven't been 
used, and we are going to rebid that, could some of those go 
back to me? Where I could walk up and use that river too or 
does it have to go through an outfitter?
    Well, if you don't mind, can I ask Senator Heinrich?
    Senator Heinrich. As a former outfitter guide, there isn't 
really, in most places, there is not a limitation on the 
general public, but anyone conducting group exercises.
    Senator Manchin. Sure.
    Senator Heinrich. Whether it is a university or a business, 
that is where you get into this outfitter guide bucket.
    Senator Manchin. Let's have----
    Senator Heinrich. And that is where many of these 
moratoriums really are limiting economic development, despite 
the fact that there is not a resource problem. So if there is 
an overuse problem, that is one thing. But in many of these 
cases, in the vast majority, I would say, there was not a 
resource problem.
    Senator Manchin. Yes, to me it seems like if we had 
language in legislation that would allow best use practices to 
enhance recreation and the economy for the purpose and we wrote 
the findings of what we are trying to accomplish then they 
couldn't be throttling this back. They have to continue to make 
sure that those permits are used. And if they are not used, 
then they go back in. I mean, if I go out of business and I 
still have a permit, the way I understand it, where the law is 
right now, it stays dormant.
    Yes, Mr. Bannon.
    Mr. Bannon. Senator, if I may?
    Indeed, in Montana we have a situation where one outfitter, 
it was Outward Bound in Red Lodge, shuttered about 15 years 
ago. They had something like 500 days on the Custer Gallatin 
National Forest. Those days were never recovered or returned to 
anybody. They're just gone.
    And as the Custer Gallatin is considering, in its forest 
planning process, permitting, they have got a clause in that 
draft plan that says there's basically a moratorium for the 
life of the plan on any additional permits. So we know that the 
capacity is reduced, but we also see no additional use being 
awarded to anyone.
    Senator Manchin. Well, the only thing I can do is I can say 
thank you, Senator Heinrich, and any way we can work with you 
on this to make some common sense for all of you in the Western 
lands. If anyone thinks that they have been throttled back, and 
they can't get on the river, come to West Virginia. We will not 
prohibit you at all.
    [Laughter.]
    Bring your own raft. Come get with a guide. Get an inner 
tube. Whatever you want. We are good with that, okay?
    Thank you. I yield back my time.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    The Chairman. We are all going to bring an inner tube----
    [Laughter.]
    Senator Gardner. An inner tube----
    The Chairman. ----to West Virginia.
    Senator Heinrich. An exciting development on the Energy and 
Natural Resources Committee here.
    [Laughter.]
    Senator Gardner. Team building activities.
    The Chairman. Field hearing.
    Senator Heinrich. There are going to be photographs, I am 
sure.
    [Laughter.]
    Madam Chairman, I think these are all really good--oh, 
sorry.
    The Chairman. [off mic] I meant Gardner----
    Senator Heinrich. My apologies.
    Senator Gardner. That's okay.
    Senator Heinrich. Senator Gardner.
    Senator Gardner. I will be brief. Thanks, Madam Chair.
    Mr. McGuire, thank you very much for your testimony today.
    The ski industry obviously had a very good year last year 
in Colorado. We are home to just under two dozen ski resorts in 
the state. Vail's got resorts all over, as we talked about, 
coming off a record winter in the Colorado River Basin, a 
record amount of snowfall in the Colorado River Basin and other 
areas as well, record number of visitors to our ski areas, 
record number of length of the ski season. So it really was an 
incredible year.
    Can you, kind of, walk through what you see though, from 
the business side of this?
    Mr. McGuire. No, I think that's right in, I think that's 
part of the momentum that I talked about in the testimony, that 
I think the industry is feeling. So coming off a 2018-2019 
winter that was good everywhere, right? It was not, you know, 
good in one place and dry another place. Snow was up about 31 
percent, and it was really equally distributed.
    So it was the fourth best year in the industry in terms of 
visitation, back up to 59 million skier visits. So everyone was 
really excited about that, and I think that momentum is rolling 
over into this year. We just had our snowiest October in a long 
time in Colorado. Good, cold temperatures everywhere, so less 
snowmaking going on. Some accounting in Colorado, over four 
feet of snow in the month of October. So everyone's really 
excited.
    But I think the other thing that has the industry bullish 
and driving some momentum is the advanced commitment that 
guests are making via all these new season pass products. It's 
a win for the consumer, and it's a win for the industry when 
people advance early or advance commit.
    Senator Gardner. And so with that success comes the 
opportunity then to invest in aging infrastructure to make 
upgrades to equipment, facilities throughout the properties and 
installations to be able to develop more accommodations for the 
growing number of visitors. What does that mean in terms of 
constraints that the industry has faced in recent years for ski 
areas on federal lands in trying to advance these capital 
improvement projects that you are able to make because of the 
successes that you have had last year and hope for this year as 
well.
    Mr. McGuire. No, that's right, the momentum, and folks want 
to capture and harness that momentum. And I think, first and 
foremost, none of this is intended or should be taken as 
commentary on the great work of the Forest Service. They're a 
tremendous partner. What we're trying to do is narrowly address 
some of the constraints that our partners are facing. We can't 
be a healthy industry without a healthy partner with the men 
and women of the U.S. Forest Service.
    But just a couple of examples. There's a Western ski area, 
they currently don't have a permit administrator in their 
forest. That means that there are delays for new lifts, a new 
lodge. They want to bury some power lines up to the ski area. 
They literally can't get started on that.
    When you have this, these lower funding regimes, we're 
seeing lower staffing levels, we're seeing staff turnover and 
we're seeing details, but details run out and people leave. And 
that really impacts the ability. We've seen a delay in project 
implementation for a new lift, new snowmaking system and trails 
and summer uses at a Western ski area. The pause that I 
referenced in testimony, it was a nine-month pause where the 
forest was just not in a position where they could accept 
applications for projects.
    We have competing ski areas owned by different entities in 
a single forest, sort of, having to elbow each other out, 
trying to get the one project slot that that forest feels like 
it has capacity to do.
    And then, I think one thing I don't want to miss are the 
avalanche centers that the Forest Service runs. There's 13 of 
them around the country. In our opinion, they're underfunded by 
about half and that gets filled in by friends and private 
donations, but that's a critical service that gets provided.
    Senator Gardner. Thank you. I think it is important to 
point out too that with the White River National Forest being 
one of the--I think it is the number one visited forest in the 
country. Over the last 20 years now we have seen significant 
declines in Forest Service personnel that are able to work on 
this. So at the same time you have significant increase in 
people visiting the most heavily visited forest in the country, 
personnel within that forest have declined, making it more 
difficult. And as you talked about in your opening statement, 
2011 legislation that passed, signed into law, allowing for 
year-round recreation. That, too, has put greater pressure on 
the Forest Service.
    Could you talk about how this legislation will allow us to 
address the year round recreation needs and permitting in the 
Forest Service?
    Mr. McGuire. No, that's right. So in 2011 you could call it 
an unfunded mandate, right? We started applying to the Forest 
Service for more summer activities and reducing the stress.
    In the White River, we actually think we're down about 40 
percent on overall rec funding. It's been a little more acute 
in the White River. That forest and that region has done 
everything possible to keep up with the ski industry, and I 
think they've done a really decent job.
    And when Mr. French was talking about the strike teams, you 
know, they've tried to do that in Colorado and they did that 
absolutely in consultation with the industry and I think we're 
starting to see some of the fruits of that.
    Senator Gardner. Great. Thank you, Madam Chair.
    The Chairman. Thank you, Senator.
    Now, Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chairman.
    I wanted to start just by saying I think these are all 
really important bills and very compatible, but addressing the 
basic resource issue, I think, is also really important and 
just getting that out there. Setting fire borrowing aside, 
which the Chair and a number of people on this Committee have 
done a remarkable amount of work on in recent years and we're 
starting to see that this year for the first time in the 
appropriations process. Recreation is still only five percent 
of the Forest Service budget. And that is despite the fact that 
it is the single largest economic driver across the Forest 
Service today. So it generates more income than the other 
programs that we typically really spend an enormous time 
focusing on in this Committee. And by limiting that and not 
making it more of a priority, what we are really doing is we 
are limiting economic development and especially in rural 
communities.
    So we have to, I think, revisit our priorities and put more 
emphasis on recreation and then also just recognize that we 
need to fund our public lands agencies better for 
infrastructure, for the folks who should be in the field to be 
able to actively manage. We have to do a better job because we 
have seen, in real dollars, reductions in that focus over time, 
and that is a huge fundamental problem.
    Mr. Bannon, we heard from Mr. Davis about challenges in 
terms of moratoriums. You know, I had an experience back in the 
'90s where I was trying to get a permit that the organization 
that I worked for at the time, Cottonwood Gulch Expeditions, 
had had for decades. I am not sure how many decades. It was one 
we used every single year. I called up to check on my permit, 
and the recreation person said, ``Sorry, we are not going to be 
able to do your permit this year. I am busy on a land exchange. 
Call me next year.'' You just can't run a business like that. 
And whether you are organized as a non-profit or as a for-
profit business, either way, if you are spending more than you 
can bring in and your business gets shut down for a season, you 
are out of business. Have you had those kinds of experiences 
too?
    Mr. Bannon. Senator, those were the good old days.
    [Laughter.]
    The temporary permit, if you were on a year-to-year 
temporary permit back then, that temporary permit has gone 
away. And under the new permitting policy of the Forest 
Service, which was done with the best of intent, a temporary 
permit that you can get on year-to-year is limited to 200 days. 
That's not even enough to run a single NOLS course on.
    Senator Heinrich. Right, yes.
    Mr. Bannon. And the process for acquiring any kind of new 
permit and trying to transfer that to a priority use permit is 
murky at best, I would say.
    And to the point that the fees or that the recreation 
resource has been so reduced, I think you see that a lot. I 
think we've seen that in the Gila National Forest.
    Senator Heinrich. Absolutely.
    Mr. Bannon. And the Gila National Forest right now is going 
through a proposed management plan. There's changes in that 
plan to group size to length of stay limits, and we're trying 
to get some securities wrapped into our own permit as we've 
been renewing it. We've been operating without an existing 
permit for over two years in the Gila National Forest on an 
agreement, and they're certainly working with us to get it 
there.
    Senator Heinrich. Yes.
    Mr. Bannon. But it's a pretty tenuous situation to be in.
    Senator Heinrich. Speaking of murky, if I asked you to 
explain how cost recovery works for recreation permits, could 
you explain it to me, either you or Mr. Davis?
    Mr. Bannon. Not easily, go for it.
    Mr. Davis. I'd be happy to.
    I tried to process a new permit back at the Mazamas maybe 
eight years ago. The permit application went in. It was clear 
to the Forest Service at that time that the environmental 
review to process the permit would be somewhat significant. 
They asked for, I believe, about a $14,000 down payment to do 
before cost recovery work or any planning could start 
happening.
    This is six, seven years ago, to my knowledge----
    Senator Heinrich. $14,000 to get in the door, basically.
    Mr. Davis. Just to get in the door. To my knowledge, that 
money has not been spent and has not been returned to the 
Mazamas.
    So, not only----
    Senator Heinrich. Let me ask you this----
    Mr. Davis. ----not only the permit stalled, but like, yeah, 
so, yeah. I mean, cost recovery is about covering the costs of 
going through the process of the permit and the paying for the 
agency staff to do all the various review processes and all 
that.
    Senator Heinrich. Yes, which can be a giant barrier to 
entry, so----
    Mr. Davis. Yeah.
    Senator Heinrich. ----we need to make some changes.
    Thank you all.
    The Chairman. Senator Daines.
    Senator Daines. Thank you, Chair Murkowski, Ranking Member 
Manchin.
    I love talking about Montana's economy and particularly 
about our outdoor recreation economy. It is absolutely a pillar 
economy in Montana. In fact, it is our outdoor economy that is 
estimated to bring in $7.1 billion in consumer spending. It is 
about $286 million in revenues to our state and local 
government. Seventy-one thousand direct jobs, that's nearly ten 
percent of all the jobs in Montana. In fact, in one poll, 87 
percent of Montanans said they are outdoor enthusiasts. Of 
course, my question then, who are those other 13 percent there 
in Montana?
    Outdoor recreation though, it is not just about dollars. It 
is a fundamental driver of our economy, but it is very much our 
way of life. My wife and I spend a lot of time outside, despite 
my staff trying to make sure I am skilled in other things 
besides being in the wilderness. We got out in August in the 
Beartooth Wilderness and did our normal three or four 20- to 
30-mile loops, some of it off trail, and that is what we define 
as a really great time in Montana.
    This bipartisan SOAR Act, and I want to thank Senator 
Heinrich for his leadership there, streamlines the permitting 
process, making it easier for families. They want to fish one 
of our great rivers. They want to backpack in the Beartooth or 
The Bob. This will help to that end.
    The bill is heavily supported by our outfitters, our 
guides, the outdoor rec groups, including the Montana 
Outfitters and Guide Association, the Montana Alpine Guides and 
so many more. I will continue to fight to get this bill passed, 
signed into law to help protect the outdoor recreation heritage 
which we have in Montana.
    Ms. Haskett, as you know, the bipartisan SOAR Act helps 
streamline currently a burdensome permitting process. Can you 
explain how making key reforms to this process will help 
increase recreational opportunities?
    Ms. Haskett. Thank you for the question.
    The BLM currently issues about 1,000 permits, and we 
oversee about 4,600 permits at any one time. Typically, most 
recreation activities on the public lands do not currently 
require a permit, but we support this bill to help improve 
those permit activities. And Secretary Bernhardt has issued 
several secretarial orders to help in this regard. For example, 
we are working on an online system so that people, public 
users, can apply to get their permit, for their special 
recreation permits, online to help that process.
    Senator Daines. One of the reasons that streamlining this 
process is so very important is in places like Montana we have 
a checkerboard pattern of land ownership. In fact, there is a 
Missoula company called onX that about every outdoor 
enthusiast, especially hunters, has that app on their phone 
because it lets us know exactly where we are at in terms of 
what, who has land ownership in terms of regarding multiple 
public agencies. You could be on BLM land, you might be on 
Forest Service land, you might be on a state piece, you might 
be on a Fish and Wildlife Service Refuge--all in the matter of 
doing a relatively short walk.
    And I can tell you, the elk have no idea what federal 
agency manages the land their feeding on. By the way, our 
farmers and ranchers know sometimes where the elk are feeding 
in the alfalfa fields. But forcing outfitters to get permits 
from three agencies, two departments for a day hunt, it just 
doesn't make sense.
    Ms. Haskett, DOI itself has numerous agencies that all have 
different permitting processes. You talked about it a bit 
already. Doesn't it make sense that having a single permit 
would save the department time and money and result in more 
people getting more permits and spending more time outside?
    Ms. Haskett. Thank you for the question.
    Absolutely. We support the provisions of the bill to 
delegate the authority so that we can have that multi-
jurisdictional ability to issue those permits. And I, on BLM 
lands, you know, hunting we probably wouldn't require a permit. 
And I completely understand the challenge of O&C lands. I used 
to work in Western Oregon where the checkerboard ownership was 
prevalent. And so, I completely understand the frustration that 
that management, that checkerboard ownership, can create some 
unique management awkwardness.
    [Laughter.]
    Senator Daines. Yes, I can tell you outdoor enthusiasts, 
they came to spend time outside, not play checkers.
    Ms. Haskett. That's right.
    Senator Daines. Sometimes you wonder.
    Last, I recently heard frustrations from a number of groups 
in Montana about the complex and sometimes excessive amount of 
forms needed for a filming permit on public land. Our Montana 
small businesses can't keep up with the growing burden of 
paperwork needed for something that has little to no effect on 
the environment.
    Mr. French, my last question. You will have to answer 
quickly because I am running out of time. What can we do to 
simplify film permits and make them more uniform across your 
agencies?
    Mr. French. I think there's a number of things that we can 
do. Our staff is working on looking at our entire permitting 
process, this is included with it, because basically, we feel 
the process right now is too cumbersome. So, you know, we'll 
get back to you on the specifics of that, Senator, but that is 
a focus of ours in our overall reform.
    Senator Daines. Yes, it would be helpful. It is yet another 
part of helping drive economic activity in Montana, and we like 
to show off our beautiful landscapes that makes for great 
backdrops for films. We appreciate your help there.
    Mr. French. Very much agree.
    Senator Daines. Yes.
    Mr. French. Thanks.
    Senator Daines. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Daines, I appreciate you 
bringing that up. I know that we visited and were frustrated 
over this issue with the film crews and photographers, and part 
of the frustration was that there were basically different 
rules or regulations from one public land agency to another. So 
it was different on Forest Service than it was on Parks. Again, 
if all you are trying to do is take pictures of our 
extraordinary public spaces, to have to jump through the level 
of hoops that we did. I know that for smaller film crews we 
were able to work through some of that which, that was good. 
But still, it is something that we need to continue working on.
    Let's go to Senator King, I believe? Was it King or, 
actually, I think it is Cortez Masto, but you needed to go 
first. Are we all good?
    Senator King. [off mic] No, I am good.
    Senator Cortez Masto. [off mic] You sure?
    Senator King. [off mic] Yes.
    The Chairman. Thank you.
    Senator Cortez Masto. Thank you. I appreciate that.
    Let's talk about beautiful Nevada outdoor recreation.
    First of all, by the way, Happy Nevada Day. This is a 
holiday for us in Nevada. We celebrate our statehood, very 
proud of our state, but also of our outdoor recreation. This is 
something that is really important to me, and I have been 
talking about it. In Nevada alone it creates 87,000 direct 
jobs, generates $12.6 billion in consumer spending.
    Mr. Davis, I so appreciate just the pragmatic, real life 
experience that you have because this is what I hear every day 
in Nevada. One of the things that I am curious about, can you 
talk a little bit about the people that you bring out to 
explore the great outdoors? Some of the experiences you have 
had from them experiencing it, maybe for the first time? Do you 
have any stories? Because, to me, this is not just about those 
of us who grew up with it or get to experience it, but those 
who are brought out for the very first time because that is 
what this is about. This is ensuring that we preserve our 
pristine areas. We give access to the great outdoors for so 
many different areas and opportunities for individuals who may 
never get the chance and all of a sudden, boom, a light goes on 
because somebody had the opportunity to bring them out there, 
they had that opportunity.
    I am curious, does anybody have a story with respect to 
something that they have experienced?
    Mr. Davis. I think all of us have those stories, especially 
all of us here today.
    The thing that I keep talking about is that, you know, 
going outdoors has all these other benefits besides just the 
economic benefits.
    Senator Cortez Masto. Right.
    Mr. Davis. We know that it improves mental and physical 
health. We know that it, sort of, especially among kids, sparks 
an interest in lifelong learning. It's these early moments that 
turn on the light bulb and tell us that we need to be stewards 
of the land. That they're, you know, that it's not just there, 
but we have to take care of it.
    Senator Cortez Masto. And it is healing.
    Mr. Davis. Yeah.
    Senator Cortez Masto. I think there is a part, that it is--
--
    Mr. Davis. Yeah.
    Senator Cortez Masto. ----there is some sort of healing 
that goes with it as well, and that is one of the things I 
learned when I was home and talking with some of our veterans 
who are dealing with some PTSD and some issues.
    Mr. Davis. Right.
    Senator Cortez Masto. They are now experiencing the 
outdoors, and part of that is helping them with their healing 
process as well.
    Mr. Davis. Right. And thank you for your bill, Accelerating 
Veterans Recovery, by the way, and Senators King and Daines for 
co-sponsoring that.
    Yeah, I mean, there were some studies pretty recently that, 
I think, we took 72 veterans out on a research study in the 
outdoors and there was a 27 percent reduction in the PTSD 
symptoms because of, through that study, which exceeds the 
success rate for prescription drugs.
    Senator Cortez Masto. Yes. And so----
    Mr. Davis. So----
    Senator Cortez Masto. Thank you.
    I only have so much time, and the reason I want us to 
explore all this is because I think it is important that we 
make access available to everyone and we streamline the 
permitting process. I mean, that is the reason why we are here 
for these bills. I think there is, conceptually, a reason why I 
support that streamlining process and we all do.
    Here is my concern, I think, from hearing from our federal 
agencies. It is great that you are in the process of trying to 
do the streamlining now, but how long has this process been 
taking place? Seven years?
    My concern is every time there is a new administration, 
there may be changes and whether there is that cooperation and 
streamlining unless we codify it somehow in law. And that is 
why I support this. What we are trying to do with this 
legislation is to make sure that long-term there is this 
coordination. But I appreciate the agencies for moving forward 
on this.
    Let me ask, while I have an opportunity here, Mr. French, 
because I think Mr. McGuire brought this up, the concern with 
the avalanche services. I think, Mr. McGuire, you said there 
are 13 of them throughout the Forest Service but they are 
underfunded by half.
    Mr. French, I am curious, what are your thoughts on that 
and how Senate bill 1723, the Ski Area Fee Retention Act, will 
help address that issue?
    Mr. French. Thank you, Senator, for the question.
    We agree. I mean, if you look at the overall capacity of 
the agency to deliver non-fire work, it's dropped by almost 40 
percent in the last 15 years. You're seeing acute symptoms of 
that in cases like this. This bill will directly help provide 
capacity into managing those ski area permits and that provides 
additional capacity that we might use toward those areas to 
help in other areas such as the avalanche centers. So it's a 
direct help.
    Senator Cortez Masto. And when you talk about the work that 
you are doing in avalanche safety, do you also talk about and 
will this help you with education as well? Is that a key piece 
of what you do when you are addressing the avalanche services?
    Mr. French. Well, the key focus of our avalanche services 
is about prevention and then safety in preventing avalanches 
from occurring. So education is a key part of that, yes.
    Senator Cortez Masto. And this bill will help funding that?
    Mr. French. Yes.
    Senator Cortez Masto. Okay, thank you.
    I notice my time is up.
    The Chairman. Thank you, Senator.
    Senator King.
    Senator King. First, Madam Chair, I want to observe that we 
mispronounced the word recreation. It really is re-creation, 
and that is the essence of what we are talking about here is 
the re-creation of people's hearts and souls when they enter 
the outdoors. I just think it is important that word is, you 
know, it is rec-reation. That is not what it is. It is re-
creation.
    Anyway, first, Mr. Bannon, you mentioned 300,000 people 
have done NOLS trips. My son was one of them, some 30 years 
ago. It was an extraordinary experience. Madam Chair, it was on 
Prince William Sound in Alaska, and it was a really signal 
experience in this young man's life. So I want to thank you for 
what NOLS does for 300,000+ people around the country.
    Mr. Bannon. Thank you, Senator.
    Senator King. More substantively, there is a theme here 
that bothers me. We had a hearing a couple weeks ago. Senator 
Cassidy has a bill to increase staffing at FERC to process 
certain permits. Here we are talking about bills to increase 
staffing and be able to respond more promptly and efficiently 
to permits. The bottom line is the Federal Government can't 
work if there is nobody to answer the phone. And we are going 
through a period where bureaucrat is a dirty word and where we 
have hiring freezes and freezes of salary, no raises, and yet 
here we are talking about delays in permitting because 
somebody, I think you said, was doing something else, had a 
land transfer, and couldn't do the permits.
    I just think we need to realize this is part--I suspect you 
could have this same hearing in practically any committee at 
the Department of Agriculture, Inland Fish or Fish and 
Wildlife, anywhere in the Federal Government, the IRS, that 
processes complaints and permitting applications from our 
citizens.
    I just think it is important to point out, Madam Chair, 
that you can't have it both ways. You can't bully reg 
bureaucrats and then complain that permits aren't being granted 
in a timely fashion. I just think that is an important point, 
and I am seeing a pattern develop here.
    Finally, a specific question. Mr. McGuire, I am curious 
about this bill and Senator Gardner isn't here. In Section, I 
think it is (5)(A)(iii), it talks about what the money can be 
used for and most of the discussion has been for administrative 
cost, reducing permitting time, staffing up the agencies. No 
problem there.
    But then it talks about other things it can be used for and 
it says interpretation activities, visitor information, visitor 
services and signage to enhance the ski area visitor 
experience. Could you buy a new chairlift with this money?
    Mr. McGuire. No.
    Senator King. Could you build a road through your ski area 
or to your ski area?
    Mr. McGuire. A ski company could submit an application to 
the Forest Service----
    Senator King. But Senator Gardner----
    Mr. McGuire. ----but no, the Forest Service would not----
    Senator King. ----was talking about and you were talking 
about increasing your infrastructure of your ski area. What 
does that mean? I am just, I am a little concerned that we are 
talking about federal money being given to a profit-making 
organization. There is no matching requirement or anything. 
What could it be used for? What does that mean, visitor 
services?
    Mr. McGuire. So I think first and foremost I do want to 
note, none of these dollars will be used to pay for or buy 
infrastructure for a private company. It's purely through the--
--
    Senator King. But that is what you just--but earlier you've 
used the word infrastructure about five times today, so did 
Senator Gardner.
    Mr. McGuire. I mean, when I say infrastructure, I mean the 
permitting and processes, the NEPA process, that a company must 
go through, a permittee must go through in order to be able to 
make that investment.
    Senator King. So this money would go to pay the cost of the 
ski area in preparing their application, is that what you are 
saying?
    Mr. McGuire. No, currently ski areas pay for all the 
environmental work that goes through, through cost recovery. I 
don't anticipate this going.
    When the Forest Service contracts that work out to a third 
party, they must necessarily accept the work of that third 
party back into the Federal Government. That takes the Forest 
Services' own biologist, their own----
    Senator King. Well, I just want to go on record as being 
concerned about this term, the visitor services. I don't know 
what that means because I have gathered through this discussion 
today that we are talking about things that enhance the visitor 
experience. In fact, that is what it says. And then it also 
says, oddly enough, it forbids using this money for fire 
suppression or for land acquisition to fill out an area in the 
area. I just find this whole provision a little disturbing.
    Madam Chair, I just want to, when we get to markup, I would 
like some more information because there is--it says 
interpretation activity, visitor information, visitor services 
and signage. That is a pretty, visitor service is a pretty 
broad term. I want to know what that means because I don't 
think we should be funding a new chairlift or if we are going 
to fund that kind of thing, there at least should be some kind 
of matching requirement and other limitations.
    Mr. McGuire, do you want to respond?
    Mr. McGuire. Certainly not the intent of this legislation 
to subsidize any actual infrastructure. When we say visitor 
services, we mean things such as signage that lets visitors 
know they're on their national forest.
    Senator King. That is fine.
    Mr. McGuire. When we say visitor services, we mean having 
law enforcement available, Forest Service Law Enforcement 
available to visit. This means having the ability for rangers 
to be out on the forest, on the ski area.
    Senator King. If that is what we are talking, I don't think 
we have any problem.
    Mr. McGuire. Yeah.
    Senator King. I'm just worried about the vagueness of the 
language. And I am worried, I don't quite understand why the 
money couldn't be used for forest fire suppression on that 
unit. It seems to me that would be something we would want to 
do, wouldn't it?
    Mr. McGuire. I think the concern would be that the fire 
suppression needs are so great that it could quickly take 
everything.
    Senator King. I see. Okay.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King. I appreciate you 
raising that. I know that was a question that Senator Manchin 
had, so what we might want to do is just look very----
    Senator King. Let the record show I had that question 
before Manchin planned it.
    The Chairman. There you go.
    [Laughter.]
    We are going to give you total credit here.
    But I do think that this is an important part of what we 
are doing as we are learning more about these issues, looking 
at the legislation that has been proposed. I think we all know 
that even contained within these three bills there are going to 
be some things, some ideas that are going to be prompted from 
this, more that we might want to add.
    And as Senator Manchin mentioned in his opening comments, 
what we are seeking to do is take all these good ideas, not 
unlike what we did with our energy storage initiative where we 
had five separate bills that we, kind of, worked together to 
really put together a package. I think, the goal here is to 
really build a robust recreation, re-creation, package coming 
out of the Committee. So I appreciate the directed focus on 
some of this language. I think we want to make sure that, 
again, it all works.
    I wanted to give you, Ms. Haskett, an opportunity to 
respond to the same question that I had asked Mr. French about 
how you balance the recreation uses on BLM lands, how you 
determine that and then I will have some other questions for 
the rest of you.
    Go ahead, Ms. Haskett.
    Ms. Haskett. Thank you for the question.
    The BLM balances those resources typically through a land 
use plan. And so, and also Secretary Bernhardt has issued many 
secretarial orders around making recreational access and 
streamlining permits and NEPA through several secretarial 
orders. And so, we are following those and implementing those 
and, like I said, balancing those through our land use planning 
process.
    The Chairman. I think we recognize that the processes are a 
little bit different between agencies and that there is a 
difference in terms of ease of operation, what is determined to 
be user friendly, consumer friendly. So again, these are things 
that we want to explore a little bit further.
    Mr. French, I want to bring up an issue that you and I have 
shared when we have been out actually in the Tongass last year 
with the Secretary. I raised it with the Secretary at the time 
because it is something that I continue to hear as I am home in 
the state and specifically, in the Tongass, although, the 
Chugach as well.
    This comes up when you have volunteers, people who really 
love their outdoors. This is our forest. This is where we play 
and where we recreate. They have seen degradation of, whether 
it is public trails or whether it is the Forest Service cabins, 
and all they want to do is help. They want to be the volunteers 
that are going to make sure that the little cabin is kept 
better after they leave for their nice weekend than when they 
go there. And the level of frustration that I have heard from 
individuals that have said, all we wanted to try to do was 
help. In order to be certified as a volunteer to be able to go 
out, we have to demonstrate that we have, you know, we are 
certified in how to run a chainsaw, that we have full-on Red 
Cross training. These are men and women that know more about 
the Tongass National Forest than most any of us would on any 
given day, and they just feel like they have been 
disenfranchised and discouraged from trying to be good 
partners. This is something that I know the Secretary cares a 
lot about because this not only is good partnering, but it 
gives us that ownership in our own forest.
    And so, if you can speak to what you are doing within 
Forest Service to look to these areas that are prohibiting or 
restricting volunteers from coming together to be helpful and 
what we can do here in Congress to help facilitate volunteer 
efforts.
    I participated in a Park Service, just, volunteer day out 
at Rock, it wasn't Rock Creek Park. It was Great Falls area in 
August or September with--August, with my interns. It was a 
great day for us. But it was one day, and we were very strictly 
supervised. But we were supervised by fabulous, fabulous folks 
from the parks. Our public lands need all of us chipping in, 
but it seems like our own government is the one that says, 
hmmmm, for liability reasons, it is just not safe that you go 
there.
    Help me out with this.
    Mr. French. Okay, thank you for the feedback. And I, we 
never want to show up in that way. We have a responsibility to 
protect folks, and I think that may be a space for some 
dialogue where we could talk about that liability side of 
things. On the other hand of this, we had 4.4 million hours of 
volunteer assistance last year. It's huge. It's critically 
important to us. And if there are ways that we're showing up 
that are disenfranchising folks, the way that we're managing 
that right now is primarily through education of our employees, 
of going in and talking about problem-solving and finding 
solutions to fix that because that's not the case in all 
places.
    When we see systemic issues, these are the places where we 
start to have conversations about are there regional policies, 
local policies or national policies that need to be either 
aligned because that's part of our problem. We're sometimes 
showing up differently in different places or we need to create 
some alignment across the agency. I'm always open to hearing 
more of that feedback, especially if we know of places where 
that's occurring and we'll address it.
    The Chairman. Well, and I know that some of the community 
members had, kind of, come together as an advisory, an ad hoc 
advisory. I think that there needs to be more of that and 
really working together with our Forest Service partners. I 
think we see some examples where it is working better than 
others.
    But I have some very, very specific stories about what we 
have seen with Forest Service cabins that are perfectly good, 
perfectly usable but they are pretty remote. Well, Alaska in 
the Tongass is pretty remote. There are no roads to anything 
anyway, so people have to fly in and the pushback that we are 
getting is well, there is not a lot of use in that particular 
cabin because it is remote. Okay, that is fair. We have to make 
decisions in terms of how we are prioritizing the cost. But if 
there are those who can then help Forest Service in some basic 
maintenance, instead of Forest Service saying, no, the answer 
here is we are going to take the cabin down because it is 
expensive to go check on every year and not that many people 
are using it. But if there are those who can help, why are we 
taking down these great assets? That is something that I would 
like to explore with you and your team a little bit more. I 
know it just can't be related to Alaska. We have some great 
facilities.
    Let's go back to you, Senator Heinrich.
    Senator Heinrich. Thank you and I think we are getting at a 
lot of really good issues that deserve our attention.
    Ms. Haskett, I don't want to pick a bone with you, but I 
want to return to the exchange you had with Senator Daines 
because I think there was a little bit of a misunderstanding. 
It is very true that you said that the BLM doesn't require 
permits for hunting. But I guarantee you, having spent some 
time in and around this business, that to guide a hunt, you do 
require permits. And that is where, for a day hunt, which he 
was describing, it still requires that special use permit.
    One of the things we talked about quite a bit here and that 
I have worked a little bit with the Chair on is the filming 
issue. Congress, somewhere around a decade ago, a little more 
than that at the tail end of the Bush administration, tasked 
Department of the Interior and the Forest Service, all three 
agencies at DOI, as well as the Forest Service with coming up 
with unified filming structure. And in 2013 there was a draft, 
or not a draft but a proposed rule. My understanding is that 
was accepted by the three DOI agencies, meaning BLM, Park 
Service, Fish and Wildlife but the Forest Service did not 
accept it and today, we still have a mismatch between DOI and 
the Forest Service on those.
    Mr. French, do you know what the thinking there was and why 
we still have two different standards for filming?
    Mr. French. I don't.
    Senator Heinrich. Okay.
    Mr. French. But I'll follow up with you, Senator.
    Senator Heinrich. That would be wonderful.
    Mr. French. You bet.
    Senator Heinrich. We want to look at that and see if one 
makes more sense than the other, if there is a way to unify 
them across agencies, just like cross agency permits make a lot 
of sense when you have BLM and Forest Service butting up 
against each other.
    I know in New Mexico, oftentimes, when some of these shows 
film, they are trying to operate in areas that have multiple 
public land agencies. And so, having one unified agency and 
maybe even a unified, once again, permit structure where you 
designate a lead agency and they can do it once rather than 
jumping through both agencies might make a great deal of sense.
    Mr. French. Sure, that makes sense.
    [Information on filming policies follow.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    

    Senator Heinrich. I know you also mentioned, Mr. French, 
the categorical exclusions that the Forest Service is working 
on with respect to recreational activities. When do you expect 
final action on some of those?
    Mr. French. We would, we're expecting to release our final 
rule sometime late spring, early summer.
    Senator Heinrich. Great.
    Mr. French. In fact, we were working on that before we came 
here, and it will directly address many of the pieces that you 
heard in Mr. McGuire and others' testimony this morning.
    Senator Heinrich. Great. I will look forward to seeing 
that.
    Thank you all very much.
    The Chairman. Senator King.
    Well, the other part of our job is now commencing. We have 
a series of three votes that began about ten minutes ago, so we 
will have to wrap up here.
    But I want to thank each of you for your contribution to 
the discussion here today. I think this is one of those areas 
when we look to those things that the Energy Committee can help 
advance, that builds a level of support, builds a level of 
consensus. We have Republican bills and Democrat bills that we 
have considered here today. We have matters that people care 
about because they care about our public lands. They care about 
the ability to get outside and recreate or re-create.
    I like that, Senator King. I am going to remember it.
    But it really is such an important part, not only of our 
economy but what we are blessed to have as Americans. I think 
we recognize that we have visitors that come from around the 
world to see our national treasures, to walk through our parks 
and to float our rivers, or to take an inner tube in Senator 
Manchin's state.
    We have extraordinary lands, and how we make them available 
is important. But I am also very, very cognizant that the 
experience is something that we want to ensure is a good one, 
and sometimes that requires a level of regulation that some of 
us would rather not have to put up with, but it is part of what 
we do.
    We also have to recognize that our public lands are not 
just entirely recreation lands, that they are multiple-use 
lands. Again, how we balance that is an important part of the 
discussion as well. So as we prioritize, that is one aspect of 
it, but again, making sure that there is access and access in a 
way that treats the lands respectfully and allows for that good 
visitor experience.
    It was interesting when I was in Arches National Park with 
Senator Lee, you know, extraordinary, extraordinary spaces. It 
was my first visit there, and it just, kind of, takes your 
breath away. We were there in the shoulder season and there 
wasn't a lot of traffic on the road, but just listening to the 
local folks there and the Park Service Superintendent talk 
about the increased visitation and how they accommodate that, 
how they ensure that they have a good visitor experience and a 
safe visitor experience when you have, basically, one way in 
and one way out and everybody wanting to see many of these same 
treasures all at once.
    How we do this is a challenge and a good one. I think we 
have some good legislation in front of us. We have a lot of 
good ideas to work with.
    I am certainly going to be soliciting more as we work to 
build a broader package, but when I think about those component 
pieces of energy measures that we can move through this 
Committee, it is good to talk about our natural resources in 
the sense of our oil, our gas, our coal, our renewables, our 
minerals, but also to recognize that the recreation component 
on our lands is an extraordinarily important part of our 
economy and an extraordinarily important part of our national 
identity.
    We have some work to do, and we will look forward to doing 
it with you all.
    Thank you so much, and we stand adjourned.
    [Whereupon, at 11:44 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ---------- 
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               





</pre></body></html>
